        NATIONAL ENDOWMENT FOR THE ARTS

               OFFICE OF INSPECTOR GENERAL

             LIMITED SCOPE AUDIT REPORT
                                    ON SELECTED
                                   NEA GRANTS TO

                 District of Columbia Commission
                    on the Arts and Humanities
                                     Washington, D.C.

                               REPORT NO. LS-13-04

                                   September 23, 2013




                           REPORT RELEASE RESTRICTION

In accordance with Public Law 110-409, The Inspector General Act of 2008, this report shall be
posted on the National Endowment for the Arts (NEA) website not later than three (3) days after it is
made publicly available with the approval of the NEA Office of Inspector General. Information
contained in this report may be confidential. The restrictions of 18 USC 1905 should be considered
before this information is released to the public. Furthermore, information contained in this report
should not be used for purposes other than those intended without prior consultation with the NEA
Office of Inspector General regarding its applicability.
                                INTRODUCTION
BACKGROUND
Since 1968, the District of Columbia Commission on the Arts and Humanities (DCCAH)
has developed programs and initiatives that support local artists, arts organizations, and
arts activities for the benefit of the city. DCCAH functions simultaneously as a state and
local arts agency, and the sole source of public funding for the arts in the District of
Columbia (D.C.). DCCAH's mission is to provide grants, programs and education
activities that encourage diverse artistic expressions and learning opportunities so that all
D.C. residents and visitors can experience the culture of the city.

OBJECTIVE, SCOPE AND METHODOLOGY
Limited scope audits involve a limited scope review of financial and non-financial
information of grant recipients to ensure validity and accuracy of reported information,
and compliance with NEA, Federal and state requirements. The objective of this limited
scope audit was to determine whether:

   •   The grantee fulfilled the financial and compliance requirements as set forth in the
       grant awards;
   •   The total project costs claimed under the grants were reasonable, allocable and
       allowable;
   •   The required match was met on National Endowment for the Arts (NEA) grant
       funds.

Our audit was conducted in accordance with the Government Auditing Standards (2011)
(Standards), issued by the Comptroller General of the United States. The Standards
require that we plan and perform the audit to obtain sufficient and appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
Accordingly, we included such tests of records and other auditing procedures that were
considered necessary under the circumstances. We reviewed DCCAH’s system of
internal controls and judgmentally selected a sample of transactions for testing from each
of the grants reviewed. In addition, we evaluated the recipient’s compliance with the
U.S. Office of Management and Budget (OMB) and NEA guidance for the management
of the American Reinvestment and Recovery Act of 2009 (Recovery Act) funding.

The Recovery Act provided $50 million to NEA to be distributed in direct grants to fund
arts projects and activities. The Recovery Act also preserved jobs in the nonprofit arts
sector threatened by declines in philanthropic and other support during the economic
downturn. Consistent with the language in the Act, eligible projects were generally
limited to salary support and fees for artists or contracted personnel. Forty percent of
such funds were distributed to State arts agencies and regional arts organizations, and 60
percent of the funds were competitively awarded to nonprofit organizations that met the
eligibility criteria established for this program. For organizations eligible to subgrant,
such as State arts agencies, funds could also be used to cover the cost of implementing
the subgranting program.

For the scope of this audit, we reviewed five of the six NEA grants in which funds had
been drawn down and costs had been reported. The grants reviewed are as follows:

      Grant No.            Original Award            Adjusted Award              Total Outlays
                              Amount                    Amount

     09-6188-2108
    (Recovery Act)                290,000                   290,000                  290,000
     09-6100-2048                 755,400                   755,369                1,510,738
     10-6100-2060                 816,200                   816,200                1,632,400
     10-4229-7090                  25,000                    25,000                   50,000
     11-6100-2058                 744,500                   744,500                1,829,866
         Total                 $2,631,100                $2,631,069               $5,313,004

PRIOR AUDIT COVERAGE
During the past five years, the NEA Office of Inspector General (OIG) has not issued any
audit reports on Federal grants awarded to DCCAH. DCCAH’s financial management
system is administered in conjunction with the Government of the District of Columbia
(D.C. Government). As of our site visit, the most recent independent auditor's report on
D.C. Government was issued January 28, 2013 for the year ended September 30, 2012.
The financial statements were audited by KPMG, an independent certified public
accounting firm, which resulted in an unqualified opinion (clean).

D.C. Government is subject to the requirements of OMB Circular A-133, Audits of
States, Local Governments and Non-Profit Organizations. An OMB Circular A-133
audit is performed to provide assurance to the Federal government as to the management
and use of Federal awards by recipients such as states, cities, universities, and non-profit
organizations. KPMG conducted the A-133 audit for the year ended September 30,
2011. Although, DCCAH Federal programs were not selected as a major program 1 and
were not reviewed, the auditors identified several noncompliance deficiencies with
Federal grant requirements that could impact the management of NEA awards. Some of
the deficiencies noted were maintaining documentation to support payroll costs and
amounts reported on the Federal Financial Report (FFR); and inadequate subrecipient
monitoring.




1
 The dollar threshold used to distinguish between Type A and Type B Programs was $10,192,867 for
Federal Awards for the year ended September 30, 2011.

                                                                                                   2
RESULTS OF AUDIT
Our limited scope audit determined that DCCAH complied with the financial
management system and recordkeeping requirements established by OMB and NEA for
its Recovery Act grant.

Our review of other NEA awards determined that although DCCAH has a financial
management system in place to adequately track awards and monitor the activities of
subrecipients, internal controls could be strengthened. We identified instances of
noncompliance with NEA, OMB and D.C. Government's Federal grant management
requirements. Specifically, DCCAH did not maintain adequate documentation to support
revenue and expenditure costs charged to the awards and did not have a current Section
504 self-evaluation on file.

                            INTERNAL CONTROLS
DOCUMENTATION OF FEDERAL AWARDS
DCCAH did not maintain revenue documentation and could not adequately support
subrecipient costs charged to Grant No. 09-6100-2048. DCCAH did not maintain salary
costs charged to Grant No. 10-4229-7090 and did not maintain adequate subrecipient
documentation for Grant Nos. 10-6100-2060 and 11-6100-2058.

According to NEA General Terms and Conditions (General Terms) recipients must:

       "... maintain financial records, supporting documents (such as cancelled checks,
       invoices, contracts, travel reports, donor letters, in-kind contribution reports, and
       personnel activity reports), statistical records, and all other records pertinent to an
       award according to the provisions outlined in OMB Circular A-110 (2 CFR 215),
       Section 53, or the "Common Rule," Section 1157.42, as applicable. Generally, the
       retention period is three years from the date the final FFR is filed."

D.C. Government's grant management policy, D.C. Citywide Grants Manual and
Sourcebook, Section 10, Award Documentation Requirement, also states:

       "The Agency shall establish the official records of awarded grants or subgrants. The
       Agency shall incorporate into its award files and retain the records of all awarded
       applications and subsequent reports for the period required by Federal and District
       guidelines for grant records."

DCCAH should adhere to the policies and procedures for document maintenance
established by NEA and D.C. Government. Although the state or local government
accounting office may be handling the fiscal transactions, state arts agencies should
maintain documentation to support Federal awards. Details of the findings are presented
below.



                                                                                                 3
Grant No. 09-6100-2048
DCCAH was awarded a partnership grant in the amount of $755,400, with a one-to-one
matching requirement, which supported multiple subrecipients. Subsequent to the award,
the grant was adjusted to $755,369. DCCAH reported total outlays in the amount of
$1,510,738 on its FFR. Award recipients are required to separately identify NEA funds
and maintain supporting documentation. Our review of this award determined that
DCCAH did not maintain adequate documentation to support revenue and expenditures.

Revenue Documentation

DCCAH was unable to provide documentation to support receipt of NEA funds
(revenue). Therefore, we were unable to determine whether revenue was separately
identifiable for this award. However, our review of the other four Federal awards
determined that revenue was separately identified in DCCAH's financial management
system. We considered this an isolated incident and will not request any further
documentation.

Expenditure Documentation

DCCAH was unable to provide documentation to support an award for a subrecipient in
the amount of $38,000. Therefore, we are questioning $38,000, which reduces the total
allowable costs to $1,472,738.

We recommend that DCCAH provide documentation to support the subrecipient award in
the amount of $38,000. Without additional documentation, a potential refund of $19,000
could be due to NEA. (See Appendix I)

Grant No. 10-4229-7090
Salary Documentation

DCCAH received a $25,000 Mayors' Institute on City Design award, with a one-to-one
matching requirement. The award is identified as "MSTUDY" in DCCAH's financial
management system. The MSTUDY project was coordinated by DCCAH and the D.C.
Office of Planning.

DCCAH provided documentation to support $50,000 in costs that agreed with the total
outlays reported by DCCAH on its FFR. Our review determined that the consulting costs,
in the amount of $40,000, was adequately supported. However, we could not determine
the percentage of salary that was allocated to the MSTUDY project. Therefore, we are
questioning $10,000 in salary costs, which reduces the allowable costs to $40,000.




                                                                                         4
We recommend that DCCAH provide documentation to support the salary costs charged
to the grant in the amount of $10,000 and develop written policies and implement
procedures for tracking the salary costs charged to Federal awards. Without additional
documentation, a potential refund of $5,000 could be due to NEA. (See Appendix I)

Grant Nos. 10-6100-2060 & 11-6100-2058
Subrecipient Documentation

DCCAH did not provide copies of subrecipient's requests for payment in the amount of
$4,300.91 under Grant No. 10-6100-2060 and $10,625 under Grant No. 11-6100-2058.

Although DCCAH did not provide copies of requests for payment, we determined that
costs were reasonable and adequately supported based on additional documentation
provided. Therefore, no further action is required.

SECTION 504 SELF-EVALUATION
DCCAH maintained the required Section 504 self-evaluation; however, the evaluation
was not updated based on DCCAH's new office location. As noted in NEA’s General
Terms, the evaluation should be reviewed for each award to ensure that it is current, the
organization is still in compliance, and the activity supported by the Arts Endowment will
be in compliance.

We recommend DCCAH complete, and/or update as necessary, the Section 504 self-
evaluation to ensure compliance with the Rehabilitation Act of 1973, as amended. A
copy of the self-evaluation should be submitted to NEA OIG. NEA OIG will provide a
copy to NEA’s Office of Civil Rights/EEO.

                             EXIT CONFERENCE
A preliminary exit conference was held with DCCAH officials on May 2, 2013.
Subsequent to our site visit, a telephone exit conference was also held with DCCAH
officials on September 3, 2013 to discuss the draft report. DCCAH officials concurred
with our findings and recommendations.

                           RECOMMENDATIONS
We recommend that DCCAH:

1. Provide documentation for Grant No. 09-6100-2048 to support costs in the amount of
   $38,000. Without additional documentation, a potential refund of $19,000 is due to
   the NEA.




                                                                                         5
2. Provide documentation for Grant No. 10-4229-7090 to support salary costs in the
   amount of $10,000. Without additional documentation, a potential refund of $5,000
   is due to the NEA.

3. Develop written policies and implement procedures for tracking the salary cost
   charged to Federal awards.

4. Complete, and/or update as necessary, the Section 504 self-evaluation to ensure
   compliance with the Rehabilitation Act of 1973, as amended. A copy of the self-
   evaluation should be submitted to NEA OIG. NEA OIG will provide a copy to
   NEA’s Office of Civil Rights/EEO.




                                                                                       6
                                                          APPENDIX I


      District of Columbia Commission on the Arts and Humanities
                      Calculation of Potential Refund

Grant No. 09-6100-2048

Total Reported Outlays                           $1,510,738
Less: Questioned Subrecipient Costs                  (38,000)
Total Allowable Costs                             1,472,738

NEA Disbursed Grant Amount                          755,369
Less: NEA Share of Allowable Costs                 (736,369)
Potential Refund                                    $19,000




Grant No. 10-4229-7090

Total Reported Outlays                              $50,000
Less: Questioned Salary Costs                       (10,000)
Total Allowable Costs                                40,000

NEA Disbursed Grant Amount                           25,000
Less: NEA Share of Allowable Costs                  (20,000)
Potential Refund                                     $5,000




                                                                   7
